<html>
<title> - STRIKING THE APPROPRIATE BALANCE: THE DEFENSE DEPARTMENT'S EXPANDING ROLE IN FOREIGN ASSISTANCE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   STRIKING THE APPROPRIATE BALANCE:
                   THE DEFENSE DEPARTMENT'S EXPANDING
                       ROLE IN FOREIGN ASSISTANCE

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2009

                               __________

                            Serial No. 111-9

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
48-139                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6304130c23001610170b060f134d000c0e4d">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
           Yleem Poblete, Republican Staff Director<greek-l>
            David S. Abramowitz, Chief Counsel deg.<greek-l>
           Kristin Wells, Deputy Chief Counsel deg.<greek-l>
     Alan Makovsky, Senior Professional Staff Member deg.<greek-l>
       David Fite, Senior Professional Staff Member deg.<greek-l>
   Pearl Alice Marsh, Senior Professional Staff Member deg.<greek-l>
     David Killion, Senior Professional Staff Member deg.<greek-l>
      Hans Hogrefe, Senior Professional Staff Member deg.<greek-l>
             Manpreet Anand, Professional Staff Member deg.
       Robin Roizman, Professional Staff Member/Counsel<greek-l>
        James Ritchotte, Professional Staff Member deg.<greek-l>
         Michael Beard, Professional Staff Member deg.<greek-l>
          Cobb Mixter, Professional Staff Member deg.<greek-l>
         Amanda Sloat, Professional Staff Member deg.<greek-l>
         Peter Quilter, Professional Staff Member deg.<greek-l>
                Daniel Silverberg, Counsel deg.<greek-l>
      Laura Rush, Professional Staff Member/Security Officer deg.
        Genell Brown, Senior Staff Associate/Hearing Coordinator


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

General Michael W. Hagee, USMC, Retired (former Commandant of the 
  Marine Corps)..................................................     7
Ms. Nancy Lindborg, President, Mercy Corps.......................    17
The Honorable Philip L. Christenson (former Assistant 
  Administrator, United States Agency for International 
  Development)...................................................    28
Reuben Brigety, Ph.D., Director of the Sustainable Security 
  Program, Center for American Progress Action Fund..............    38

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

General Michael W. Hagee: Prepared statement.....................     9
Ms. Nancy Lindborg: Prepared statement...........................    20
The Honorable Philip L. Christenson: Prepared statement..........    31
Reuben Brigety, Ph.D.: Prepared statement........................    40
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Material submitted for the record.....................    61
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Material submitted for the record............    73

                                APPENDIX

Hearing notice...................................................    86
Hearing minutes..................................................    87
The Honorable Howard L. Berman: Prepared statement...............    89
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................    91
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Prepared statement....................    92
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    94
The Honorable Michael E. McMahon, a Representative in Congress 
  from the State of New York: Prepared statement.................    95


 STRIKING THE APPROPRIATE BALANCE: THE DEFENSE DEPARTMENT'S EXPANDING 
                       ROLE IN FOREIGN ASSISTANCE

                              ----------                              


                       WEDNESDAY, MARCH 18, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m. in 
room 2172, Rayburn House Office Building, Hon. Howard L. 
Berman, (chairman of the committee) presiding.
    Chairman Berman. The committee will come to order. Before 
the hearing starts, I have a few small housekeeping items. I am 
most pleased to welcome back, although apparently not 
personally, Lynn Woolsey, who was appointed to the committee 
last week. She served as a member of the committee in the last 
Congress, and I am sure I speak for all my colleagues when I 
say I look forward to working with her again on the committee 
this Congress.
    So, without objection, she is appointed to serve on the 
Africa and Global Health Subcommittee on which there is a 
vacancy made by the leave of absence taken by Adam Smith.
    Second, in light of the changes in the membership request, 
without objection, the size of the Middle East and South Asia 
Subcommittee will be conformed to its current membership.
    I would like to welcome our distinguished panel of 
witnesses today for the third in a series of hearings that the 
committee will convene on the foreign assistance reform.
    In the last Congress, the full committee held two hearings 
addressing this issue, and our subcommittee has held several 
others.
    One observation that repeatedly came up during those 
hearings was the Defense Department's increasing role in 
foreign assistance. We have heard the same explanation for this 
over and over again: DoD is filling a vacuum left by the State 
Department and USAID, which lack the capacity to carry out 
their diplomatic and development functions.
    There is no doubt that these agencies have been weakened by 
a severe shortage of resources. For example, USAID has only 
about 2,500 permanent staff today<greek-l>, deg. compared to 
4,300 in 1975.
    The agency is responsible for overseeing hundreds of 
infrastructure projects around the world, yet employs only five 
engineers. They have only 29 education specialists to monitor 
programs in 87 countries.
    Likewise, the State Department lacks resource to fill 
critical diplomatic posts. Today, the agency has a 12-percent 
vacancy rate in overseas Foreign Service 
positions<greek-l>, deg. and an even higher vacancy rate here 
in the United States. This hollowing out of the State 
Department cripples its ability to aggressively pursue and 
protect American interests abroad.
    President Obama's Fiscal Year 2010 international affairs 
budget request--which I strongly support, and I hope my 
colleagues will too--represents an important step forward in 
addressing these weaknesses. And for our part, the committee 
plans to tackle these troubling capacity issues when we take up 
the State Department authorization bill and foreign assistance 
reform legislation later this year.
    But beyond capacity and resources, there are some deeper 
issues I would like to examine today.
    Is providing military assistance to a foreign country a 
foreign policy decision that should be the primary 
responsibility of civilian agencies, with appropriate Defense 
Department involvement in implementation? Or is it a national 
security mission that should be planned and carried out by the 
Pentagon?
    Does DoD have such a comparative advantage in performing 
certain non-traditional defense missions that it should be 
carrying out activities previously reserved for civilian 
agencies? And what are the implications of putting a military 
face on development and humanitarian activities?
    How does this affect the way we are viewed in the world, 
and what is the practical impact on USAID's ability to carry 
out development projects?
    The Department of Defense has always played an important 
role in carrying out certain security assistance activities, 
particularly implementing military training and military sales 
directed by the Department of State. However, DoD's role 
significantly expanded in the context of Iraq and Afghanistan, 
where they took on a direct role in planning, funding, and 
implementing military and police training, and other non-
military activities.
    And beyond these two conflicts, the Pentagon began 
requesting--and receiving--authority to conduct similar 
activities in other parts of the world.
    DoD's goal was to address irregular security threats on a 
global scale, threats they argued did not fit neatly into 
traditional State or Defense Department missions, and thus, 
required new tools of engagement. These include global 
train<greek-l>ing deg. and equip authority, also known as the 
Section 1206 program; a worldwide stabilization and 
reconstruction fund, also known as the Section 1207 program; 
and numerous new training programs directly managed by the 
Defense Department.
    In addition, some existing authorities were expanded, 
including the Combatant Commander's Initiative Fund and 
Overseas Humanitarian, Disaster and Civic Assistance.
    DoD's argument that these programs are justified by 
``military necessity'' should be given significant deference. 
Indeed, I can think of many situations in which it might make 
sense for military commanders to get involved in activities 
that, in peacetime, would be considered foreign assistance.
    However, many questions remain regarding the utility and 
implications of such programs. For example, on several 
occasions this committee has raised concerns about the use of 
Section 1206 funds. In some cases it appears they have been 
used for programs with only a tenuous link to counterterrorism. 
In others, it looks more like a traditional diplomatic tool 
designed to curry influence with potential friends.
    In the development context, critics have argued the DoD's 
role erases the distinction between military personnel and 
civilians carrying out similar development activities, ignores 
development best practices, such as sustainability and 
effectiveness, and puts a military face on inherently civilian 
programs. It can also result in waste, fraud, and abuse, which 
has been well documented by the Office of the Special Inspector 
General for Iraq Reconstruction.
    Interestingly, in a letter attached to a report submitted 
last week on one of DoD's international programs, the Pentagon 
stated,

        ``Humanitarian assistance activities continue to 
        provide significant peacetime engagement opportunities 
        for Combatant Commanders and U.S. military 
        personnel<greek-l>, deg. while also serving the basic 
        economic and social needs of people in the countries 
        supported.''

    The question remains: Shouldn't our ``peacetime 
engagement'' efforts be carried out by USAID, our Nation's 
premier development agency? <greek-l>and--our nation's premier 
development agency?  deg.And should our military be responsible 
for performing the mission of civilian agencies? Do we really 
want to ask the men and women who go to war to do the mission 
of both Defense and State?
    Some have suggested that a national development strategy 
would serve as a useful mechanism to help coordinate and 
establish appropriate roles for various agencies that provide 
foreign assistance. One of our witnesses supports such a 
strategy in her written statement.
    <greek-l>I believe this hearing today is an opportunity, or 
 deg.I welcome this hearing today as an opportunity to shed 
light on the many important questions surrounding the 
military's growing role in foreign assistance.
    And I now turn to my friend and ranking member, Ms. Ros-
Lehtinen, for her opening statement.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    There have been successes in international assistance 
efforts over the past half-century. The Green Revolution 
significantly increased food production. Ongoing efforts have 
raised child survival rates around the world, and survival and 
prevention of HIV/AIDS is on the rise.
    We have helped develop and strengthen independent civil 
society, and fostered market-based economies in emerging 
democracies.
    Nevertheless, I think that many would agree that the 
results of decades of foreign aid provided not just by the 
United States, but by European states, by the U.N. development 
agencies, by the World Bank and other regional development 
banks, have been disappointing. In many areas of the world, we 
wonder why the significant aid provided has not produced the 
outcome we all want: Stable, secure, free, prosperous states.
    Analysts and policymakers today refer to failed or failing 
states, and in some instances countries in conflict or at risk 
falling into conflict, all despite our past and continuing 
assistance to those states.
    In conflict situations, we must give our military the tools 
it needs to help win the support of local populations and fight 
threats to U.S. national security. I support the military in 
providing urgent humanitarian aid and in providing assistance 
to our allies to help fight international narcotrafficking and 
global Islamic militants.
    However, providing the Defense Department with more of a 
role in providing assistance for the development of 
impoverished countries raises concerns. It is not because it 
might prove difficult to coordinate aid provided by our 
military with aid provided by our civilian agencies; but 
rather, if the underlying concepts and approaches for 
development assistance are faulty, and the strategy is based on 
archaic models, then the Defense Department may prove no more 
successful at achieving long-term developmental goals than our 
civilian agencies have been.
    I am therefore not sure that the proposals put forth, such 
as creating a new aid program for reconstruction and 
stabilization, or those calling for more personnel, or a 
significant increase in funding, will prove any more 
productive. Some of the programs being implemented by the State 
Department's new Reconstruction and Stabilization Office look a 
lot like the kind of programs that USAID has had in place or 
that the State Department's Bureau of International Narcotics 
and Law Enforcement has already implemented for many years.
    We also should recall that not just the United States, but 
many other donor countries and agencies have contributed major 
amounts of assistance over the decades, with mixed results. 
Providing more funds and more staff may produce some marginal 
improvement in the immediate term, but it is questionable 
whether this would ensure long-term sustainable progress in 
light of the results of the past 50 years.
    We understand the desire by the State Department and USAID 
to reclaim their dominance and counter the growing engagement 
of the Defense Department in providing assistance. But we 
should not rush to judgment on such proposals. We first need a 
careful assessment of our performance in the last five decades 
through our current programs, and under our current structures; 
and work toward real and comprehensive reform of our general 
personnel and procurement systems.
    The majority of our aid programs are operating on the basis 
of a post-World War II approach and concepts that have their 
roots in the 1950s. If we want to successfully help others, 
then such concepts need to be updated. Flawed assumptions about 
how to promote the development of impoverished countries need 
to be addressed. Otherwise, we may find that we will continue 
to provide significant taxpayer funds, while the impoverished 
states that we seek to aid continue to fail, regardless of 
which of our agencies, military or civilian, we use to provide 
that assistance.
    I hope that our witnesses today will take a moment to 
consider that overriding question while they provide us with 
their views on the proper role of the military in providing 
assistance overseas.
    I would like to give my remaining 1 minute to Congressman 
Smith, if I could, Mr. Chairman.
    Mr. Smith. Thank you very much to my friend, Ileana Ros-
Lehtinen.
    Let me just say that I, over the many years that I have 
been in Congress, 29 years, have observed that the military's 
finest role is often in the emergency situation. I was there to 
provide comfort when the Kurds were escaping; I was there 3 
days after it happened. I joined friends and some other 
colleagues on the U.S.S. Abraham Lincoln when, without our help 
and the helicopters that were bringing emergency aid to those 
in Banda Aceh and that tsunami-affected area, many lives would 
have been lost.
    And then most recently, in Georgia, where the military 
stepped up and provided an enormous amount of help, and then 
passed the baton in a timely fashion to the NGOs and to the 
government in an almost seamless transition. Over the years 
that has been the key, I think. And I hope we would never lose 
the fact that when it comes to the ability to muster medicines 
and food and all of those things that make life possible during 
an emergency, no one does it better than the military. And 
then, for a more sustainable approach, in comes the NGOs and 
those who do it so well.
    So I would hope that we would emphasize that going forward. 
Obviously, our mission as the military remains, first and 
foremost, the defense of our nation. But as you point out in 
your statement, General Hagee, there are three pillars of smart 
power: Coherent, coordinated, and adequately resourced.
    I would add a fourth, and that would be cultural 
sensitivity, so that we never impose values that are 
antithetical to the local population, except when it comes to 
fundamental human rights.
    Thank you.
    Chairman Berman. What do you----
    Ms. Ros-Lehtinen. If Mr. Burton could have the remaining 
time.
    Mr. Burton. I would just like to say, in the 29 seconds 
that I have here, that one of my major concerns is one of our 
best allies in the world, Israel, is in grave danger over 
there. And I hope that the Defense Department will do 
everything they can to make sure they have all of the tools 
necessary to ward off any kind of an attack from Iran or 
anybody else. They are our big ally, and we need to support 
them.
    Chairman Berman. The time of the gentlelady has expired.
    Two of our witnesses have to leave at noon. We may be 
interrupted by a couple of votes. Does anybody have a 
statement, or can we go right to the witnesses?
    [No response.]
    Chairman Berman. Oh, great. I will now introduce the 
witnesses.
    We have a really exceptionally talented panel with us today 
to discuss the Defense Department's expanding role in foreign 
assistance.
    General Michael Hagee served as the 33rd Commandant of the 
U.S. Marine Corps from 2003 to 2006. During almost 39 years of 
service as a Marine, he commanded at every level, including 
platoon, company, battalion, marine expeditionary unit 
division, and marine expeditionary force.
    He served as executive assistant to the Deputy Secretary of 
Defense, executive assistant to the Director of the Central 
Intelligence Agency, the liaison to the Presidential Envoy to 
Somalia, and a member of the Joint Chiefs of Staff.
    General Hagee serves on the boards of several U.S. and 
international corporations, and as a member of the U.S. 
Department of Science Board and the National Security Advisory 
Council for the Center for U.S. Global Engagement and the U.S. 
Global Leadership Campaign.
    Graduating with distinction from the United States Naval 
Academy in 1968, he received a commission in the U.S. Marine 
Corps as an infantry officer.
    He holds a master's degree in electrical 
engineering<greek-l>, deg. and a master's degree in National 
Security Studies.
    Nancy Lindborg is the president of Mercy Corps, an 
international relief and development organization that operates 
in challenging transitional environments around the globe, 
including Iraq, the Sudan, Afghanistan, the Balkans, North 
Korea, and tsunami-affected areas of Southern Asia.
    Ms. Lindborg currently serves as co-president of the U.S. 
Global Leadership Campaign Board, and is a member of the 
USAID's Advisory Committee on Voluntary Foreign Aid. I am not 
quite sure what mandatory foreign aid is, but--and I have not 
proposed making it an entitlement program.
    She graduated with honors from Stanford University with a 
B.A. in English literature. She also holds an M.A. in English 
literature from Stanford, and an M.A. in public administration 
from the John F. Kennedy School of Government at Harvard 
University.
    Philip Christenson spent half his career in foreign affairs 
with the executive branch<greek-l>, deg. and half with the 
House Africa Subcommittee and as staff director of the Senate 
Subcommittee on Africa.
    In the executive branch, he was appointed a career Foreign 
Service Officer in October 1970 at the State Department, and 
served overseas at the U.S. Embassies in Vientiane, Laos, and 
Brussels, Belgium, and as an assistant administrator at USAID.
    In 2006/2007, he served as a senior advisor to the HELP 
Commission, counseling on matters relating to African 
development and personnel procurement practices of U.S. foreign 
aid agencies.
    He is a 1971 graduate of Georgetown University's School of 
Foreign Service.
    Reuben Brigety, II, is the director of the Sustainable 
Security Program at the Center for American Progress. His work 
focuses on the role of development assistance in U.S. foreign 
policy, U.S. national security, human rights, and humanitarian 
affairs.
    Prior to joining American Progress, he served as a special 
assistant in the Bureau for Democracy, Conflict, and 
Humanitarian Assistance in USAID, and was a researcher with the 
Arms Division of Human Rights Watch.
    Before joining Human Rights Watch, Mr. Brigety was an 
active-duty U.S. naval officer, and held several staff 
positions in the Pentagon and in fleet support units. He is a 
distinguished midshipman graduate of the U.S. Naval Academy, 
where he earned a B.S. in political science with merit, and 
served as the Brigade Commander. He also holds a Ph.D. in 
international relations from Cambridge University, England.
    Thank you all for being here. And General Hagee, why don't 
you start? You can summarize your written testimony, and we 
look forward to hearing from you.

 STATEMENT OF GENERAL MICHAEL W. HAGEE, USMC, RETIRED (FORMER 
                COMMANDANT OF THE MARINE CORPS)

    General Hagee. Thank you very much, Mr. Chairman and 
Ranking Member Ros-Lehtinen. Thank you both for inviting me 
here to discuss what I think is a very important issue, 
especially today.
    I assume that my written statement will be submitted for 
the record, so I----
    Chairman Berman. Yes, all the prepared testimony will be 
included in the record of this hearing.
    General Hagee. That is great. So I don't intend to 
summarize that. I will just say a couple of words here to try 
to bring my experience to bear on this particular issue.
    It may surprise you that a former Commandant of the Marine 
Corps and an individual who was in the military for 43 years, a 
Marine almost for 39 years, is here suggesting, arguing, 
supporting that we need to increase the resources for our 
foreign assistance, and for the State Department. And that 
comes from years of experience on the battlefield.
    We have the best military in the world. And these young men 
and women out there today, they get it. They know there is 
something more important than themselves. And they do 
unbelievable things every single day. In many cases, things 
that they were not trained for, educated for, but they do it. 
And I am really quite proud of them, as I know everyone on this 
committee is.
    But, when you have this great big, wonderful hammer, 
everything appears to be a nail when you have a problem. And I 
think sometimes that is what we see: Everything out there is a 
nail, and we want to use this hammer on it.
    We can, as Mr. Smith said, bring peace, stability to a 
chaotic situation. He talked about, Mr. Smith talked about 
Provide Comfort. I was in Somalia, with General Zinni, who was 
also in Provide Comfort.
    At that particular point in time, when we came in on the 
10th of December, there were several hundred Somalians dying 
every, single day. And they were fighting one another. In 14 
days--2 weeks--we stopped that. We stopped the dying, we 
stopped the fighting. By ``we,'' I mean the United States 
military and some of our coalition partners that came in at 
that time.
    But then they looked to us to provide some assistance and 
some development. We had NGOs there on the ground. It was 
really uncoordinated, and primarily thanks to General Zinni, 
who have learned in Provide Comfort, I think we set up one of 
the first CMOCs, Civilian Military Operation Centers, and 
started the coordination with the NGOs and other individuals 
who were on the ground.
    Ambassador Bob Oakley was there with two, two Foreign 
Service Officers. So most of the heavy lifting, of course, was 
done by the military. At that point in time, I would argue that 
it was time to pass it over to civilian leadership, but the 
military stood up and did what needed to be done there.
    Really, all elements of National Powers need to be brought 
to bear, especially in situations that we have today. As I 
said, the military can stabilize, but the other elements of 
national power, especially our diplomacy, our foreign 
assistance, our economic aid, need to be brought to bear in 
some of these very sophisticated and complex problems.
    I am not sure, in fact I know from my experience on the 
battlefield, they do not have the proper resources. And by 
resources, I mean the capacity, I mean the capability, I mean 
the education. And I hope we are able to talk about, talk about 
some of these points during the general question-and-answer 
period.
    In the area of national security, I can think of no other 
issue more important to this nation right now than the one we 
are talking about. And that is, how do we properly resource all 
the elements of national power, and how are we sure that they 
are properly coordinated so they can carry out the goals and 
ideas of our National Security Administration.
    Mr. Chairman, I look forward to your questions.
    [The prepared statement of Mr. Hagee 
follows:]<greek-l>Michael Hagee deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you very much, General.
    Ms. Lindborg.

    STATEMENT OF MS. NANCY LINDBORG, PRESIDENT, MERCY CORPS

    Ms. Lindborg. Thank you very much, Chairman Berman, Ranking 
Member <greek-l>Ms.  deg.Ros-Lehtinen, and members of the 
committee.
    I very much appreciate the opportunity to be here today. I 
think this is a critical topic, and I very much applaud your 
leadership in tackling this, and the opening statements, all of 
which were very thoughtful in raising exactly the right 
questions.
    We are at a pivotal political moment today. There is rising 
consensus both here in Washington and beyond that we as a 
nation have an opportunity and a need to rebalance our 
development, diplomacy and defense capacities, and find ways to 
apply those to meet the critical foreign policy challenges 
ahead.
    As you mentioned, Mr. Berman, I am here as the President of 
Mercy Corps. We work in some of the toughest environments 
around the world, where often the only expatriates on the 
ground are NGO workers, journalists, and the military. And I 
have seen first-hand the heroic work of the military, as well 
as the tasks that they are increasingly pressed to undertake 
that are far beyond their mission.
    General Hagee is one of many thoughtful military voices 
that has been ringing the alarm on this, as well as the very 
eloquent statements by Secretary Gates, on the need to create a 
better-capacitated, better-resourced civilian partner for the 
military as they tackle some of these tough challenges.
    I would just join my voice in the conviction that it is 
essential that we have a stronger and more vibrant civilian 
leadership, and that this is critical to fully reflect who we, 
as a nation, want to be in the world. We need to have greater 
ability to engage through our civilian tools of diplomacy and 
development.
    I want to just hit two key points in a summary of my 
testimony today. One is the need to rebalance our authorities 
and our capacities on the civilian and the military side; and 
second is the need to create a structure that enables the best 
of both to be fully harnessed.
    On the rebalancing side, I think there has been a chronic 
under-investment in our civilian capacities. And despite some 
important advances that happened under the last administration, 
we are still completely hamstrung in our ability to fully 
deploy those civilian capacities, as you noted, Mr. Berman.
    And I think the result, as you noted, Ms. Ros-Lehtinen, is 
that we are no longer cutting-edge; we are no longer thinking 
and experimenting and doing the best possible work that we need 
to do to tackle the challenges of these failed states. And we 
see what happens when they are left unattended, as was the 
experience with Afghanistan.
    The civilian gap was starkly illustrated in the 
Afghanistan-Iraq examples, and the military jumped in. A number 
of authorities were improvised, including the 1207 and 1206 
authorities, and the Commanders Emergency Response Program that 
have given significant funding to the military to do what the 
civilian side didn't have the capacity to do.
    This has led to an increasing role of the military, as we 
have seen the combatant commands, and particularly the Africa 
command, set up to not only fill gaps, but in fact begin to 
overlap where civilian capacity already exists.
    We now have the military, our highly trained military 
forces, drilling wells in Kenya and Uganda, where there is 
significant access and capacity on the civilian side already 
present. I would argue this is not a good use of our military 
troops<greek-l>, deg. and it represents a profound shift in how 
we pursue global assistance. And it is a concern as we look at 
further expansion of the military into activities that are best 
undertaken by well-resourced civilian development and diplomacy 
capacities.
    Most importantly, I think it underscores how important it 
is to rebuild our front-line civilian capacity to enable USAID 
and the State Department to be more vibrant, more forward-
thinking; to come up with innovative new approaches toward 
these development challenges; and civilianize some of these 
improvised authorities that accord greater resources for the 
military to do this work.
    As we do this, we need to develop structures that enable 
the core competencies and the highest values of both our 
civilian and the military capacities to be brought forward.
    We talk a lot about a whole-of-government approach, which 
is essential to having good coordination. General Hagee noted 
the chaos that can exist when you don't have good coordination. 
But we need to do so in a way that understands the importance 
of differentiating these activities.
    Mercy Corps works in many environments where we are side-
by-side with the military. It is essential for our security 
that we are differentiated from the military. Our greatest 
value, as a non-governmental organization, is, in not being 
affiliated with the military, that we can begin to pursue the 
longer-term development challenges in these environments that 
the military is fundamentally ill-suited for, and our 
association with them can, paradoxically, actually increase our 
vulnerability to attacks.
    As we look at structures, we need to think about how 
<greek-l>do  deg.you create coordination without subordinating 
the longer-term development objectives to the shorter-term 
stability and security objectives that the military is 
pursuing.
    Along those lines, I would suggest that we rethink the 
provincial reconstruction teams, which were set up as an 
improvisational structure to meet the needs in Afghanistan and 
Iraq, and think about how to create security and stability 
without creating greater security threats to the civilian side, 
and undermine the longer-term development by some of the 
counter-insurgency methods that the military has adopted to 
meet these new realities.
    We can do it. We did it for some years in Iraq. The models 
are there to be looked at. I strongly argue we rethink that.
    Essentially, the longer-term development challenge that 
must be focused on, with all the innovative ways that we need 
to consider must be a community-led process. World Bank 
President Mr. Zoellick noted, I think quite eloquently, that 
this essentially means locally owned. And without that, it is 
neither effective nor legitimate in the eyes of the local 
communities.
    The military, by definition, has its own agenda that it 
must pursue. And it is not the appropriate tool for pursuing 
that longer-term development agenda.
    I would just close with five quick recommendations that are 
more fully noted in my testimony, but I strongly support the 
need for an increased international affairs budget. I think the 
recent budget that was submitted begins the journey that was 
started under the last administration, of rebuilding USAID and 
the Department of State. And it is critical that we have the 
civilian capacities as a partner for the military.
    I would urge the development of a national strategy for 
global development that articulates the goals, what we need to 
accomplish, and funds and invests on the basis of that, not on 
the basis of what do we already have.
    As a part of that, it is essential that we rebuild USAID, 
especially its capacity to operate with greater flexibility and 
greater effectiveness in these difficult, complex transitional 
environments. It does not currently have the authorities for 
longer-term, more flexible funding that the military has with 
the CERP. It does not have the ability to have a strong 
handshake between its disaster funding and its long-term 
development funding.
    As I noted earlier, I think the PRTs----
    Chairman Berman. You have to--right.
    Ms. Lindborg [continuing]. And reinforce civilian 
leadership in the new Foreign Affairs Act.
    Thank you very much.
    [The prepared statement of Ms. Lindborg 
follows:]<greek-l>Nancy Lindborg deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you. Thank you very much, Ms. 
Lindborg.
    Mr. Christenson.

   STATEMENT OF THE HONORABLE PHILIP L. CHRISTENSON (FORMER 
ASSISTANT ADMINISTRATOR, UNITED STATES AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT)

    Mr. Christenson. Thank you, Mr. Chairman. I want to say 
that many of us who are interested in foreign assistance have 
very great expectations for your leadership and that for your 
ranking member. We know you both to be serious legislators who 
actually like to get legislation done, and have a record of 
accomplishment. And we also know that you both work in a 
bipartisan way, and that somehow between now and the end of 
this Congress, you are probably going to hammer out something 
that is going to pass the Congress in both Houses.
    Chairman Berman. Your time will start now. [Laughter.]
    Mr. Christenson. I see Mr. Connolly, who was a member of 
the Senate Foreign Relations Committee staff the last time we 
passed the Foreign Assistance Act.
    Chairman Berman. And he has overcome it well.
    Mr. Christenson. I want to point out that the argument over 
who controls foreign aid has been going on since 1942. The very 
first aid agency got started, and 4 days later the warfare 
broke out between the State Department, the Pentagon, and the 
independent aid agency. We have done this for 60 years. It is 
so tiresome. I hope someday we can find some sort of solution 
that will put an end to the battling, and get people focused on 
doing the job at hand.
    On the issue of the militarization and the 20 percent of 
development assistance that we report to the Development 
Assistance Committee that is now channeled through the 
Pentagon: I think it is important that there is a little 
terminological confusion here.
    DoD can, you know, report as development its money for Iraq 
and a whole lot of other things that it is doing in Afghanistan 
and Iraq. I think we really have to accept that these are 
battlefield activities. They are not development assistance 
programs. You really cannot measure them by any standard other 
than how much they contribute to bringing these wars to an end.
    Frankly, if they are wasteful and they bring the war to the 
end, that is not too bad. We have just got to get these wars 
ended.
    The problem that I think the committee might want to look 
at is what I consider the civilianization of the battlefield. 
If you talk to State Department and USAID employees, they now 
are going out to these battle zones, Iraq and Afghanistan, and 
are expected to be part of a military strategy.
    It is not so much that DoD is invading traditional State 
Department and USAID activities; it is that State and USAID are 
being asked to participate and manage part of the Pentagon's 
strategy. I would say to you that these are not agencies that 
are capable of doing that.
    I worked for the Foreign Relations Committee when the 
Beirut bombing took place. After the Beirut bombing, we 
adopted--and I have to say we, because it was Congress and the 
executive branch--a zero-tolerance policy toward employees' 
safety. Ambassadors were told they are personally liable, and 
their careers will be affected if anybody at the Embassy is 
harmed or killed.
    So ambassadors have adopted a zero-based approach to 
personnel safety. One of the ambassadors, and I don't need to 
name names, in one of the war countries announced to a staff 
meeting, ``No one dies on my watch.''
    If we have that policy, what we end up with is 1,000 
Foreign Service employees holed up in a bunker in Baghdad, 
living in what one USAID employee calls assisted living. They 
have a housing office, gym, and cafeteria in the same compound, 
and they are never allowed to leave.
    And when they occasionally do leave, they go out with such 
massive force of security presence that it is very hard to 
believe that we are helping our foreign policy. What was 
described to me was a USAID employee in Kabul went out a few 
miles out of town to go visit an Afghani contact. He got in the 
center seat of the armored vehicle; the rest of the vehicle was 
filled with guards, with personal armor, and carrying loaded 
automatic weapons. There was a follow-up car that followed 
them, equally filled with guards.
    They got to the Afghani's house. The USAID employee was 
told to stay in the car while they secured the scene. The 
guards got out, pointed their weapons at the man and his family 
and his dog and his mother. This is no way to win hearts and 
minds. We would have been better off staying at home.
    So my question is whether we don't need a different type of 
USAID activity, where we get young men and women who have 
served in the military--they are young, they are in shape, they 
are combat-trained, they know how to protect themselves. There 
are 1 million Americans who have gone through Iraq or 
Afghanistan who came back and went to school; they probably got 
their degrees in agronomy and animal science that we need. 
Maybe these are the people we ought to turn to, rather than 
expecting a group of white-collar, middle-aged office workers 
to go out into these war zones. I mean, what we are doing just 
doesn't make sense to me.
    If you look at what State and USAID are being asked for and 
at the State Department's recent recruitments for Afghanistan 
and Iraq: Urban planners, somebody to help redesign the bus 
routes in some town in Iraq; someone to promote tourism to a 
city in Iraq; museum curators.
    These aren't State Department functions. Why are we asking 
the State Department to provide that kind of personnel to the 
PRTs? It doesn't make sense. The tourism promotion job makes 
you wonder, what is our strategy here? Because none of it makes 
sense.
    On the issue of some of these other DoD ``development 
projects,'' a lot of them are actually training missions for 
our troops. They go to resource-scarce areas such as northern 
Kenya or Uganda and drill wells or build houses. This is 
training for our troops so that they have experience, you know, 
when they are called perhaps someday when they go to Darfur and 
set up a peacekeeping mission, or provide logistic support for 
peacekeeping.
    It is also PR. The military believes very strongly that 
this is a good PR program, and that they need military-to-
military relationships.
    But these are activities I don't think we should lump into 
the development assistance category as this committee and the 
development community has traditionally understood them. These 
are military programs; they are PR programs.
    However, DoD is aggressively going after some of the areas 
that were traditionally USAID and State. One of the committee 
questions is that how do we assure that State and USAID 
continue to be the leading agency and have control.
    I worked for the HELP Commission. One of its 
recommendations in the commission report, which I strongly urge 
on the committee, is to start working with countries to develop 
long-term strategies and specific commitments to these 
countries about what we are going to do with our foreign aid 
program.
    If we have a long-term, country-owned strategy, that will 
be more useful in protecting the primacy of the State 
Department and USAID than anything we can do here in 
Washington.
    I am saying that State and USAID need to form an alliance 
with the government of each country. And if we have a 
commitment, I mean it would be a very sound commitment, that we 
can plan ahead--that in year 5 we are going to do this, in year 
7 we are going to do that.
    State and USAID need to strengthen themselves with regard 
to their own capacities. USAID in particular needs help. We 
have three former administrators of the agency who wrote an 
article for Foreign Affairs Magazine in which they flatly said 
the agency is dysfunctional. And I believe you, Mr. Chairman, 
have said it is broken. Other people have said it is broken. We 
are all in agreement with that.
    And the question is, how do we fix it? Do we fix it now, 
and then think later about expanding its responsibilities? Or 
do we try to start by dumping a whole lot of new money and a 
whole lot of new personnel, and then try to reform it while 
they are trying to absorb all the new responsibilities and 
personnel?
    My argument is they should fix themselves.
    Thank you.
    [The prepared statement of Mr. Christenson 
follows:]<greek-l>Philip Christenson deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Berman. Thank you very much, Mr. Christenson.
    Dr. Brigety.

STATEMENT OF REUBEN BRIGETY, PH.D., DIRECTOR OF THE SUSTAINABLE 
   SECURITY PROGRAM, CENTER FOR AMERICAN PROGRESS ACTION FUND

    Mr. Brigety. Chairman Berman, Ranking Member Ros-Lehtinen, 
it is my great honor to appear to you this morning. Thank you 
very much for inviting me.
    The Sustainable Security Program, which I direct at the 
Center for American Progress, is based on the premise that 
improving the lives of others in the least-developed parts of 
the world is an important, and at times a vital, national 
interest of the United States. As such, reforming the 
mechanisms of our Government to perform this mission is of the 
utmost urgency.
    The Defense Department's expanding role in foreign 
assistance comes from the recognition of two important 
developments. The first is that conventional or kinetic 
military operations are often insufficient to achieve the 
strategic objectives of a given war. The conflicts in Iraq and 
Afghanistan have retaught the military that you can win the war 
through decisive military operations, but you cannot 
necessarily win the peace that way.
    The second is that there is great value in preventing 
conflicts, rather than reacting to them. Investing in a 
country's development today can prevent it from becoming a 
battlefield tomorrow.
    As such, the military is increasingly using non-kinetic 
instruments of influence in the form of foreign assistance to 
promote stability and prevent conflicts around the world.
    Now, when considering the developmental impact of foreign 
assistance activities conducted by the military, it is helpful 
to think about two types of assistance: Fundamental and 
instrumental.
    Fundamental assistance sees improving the lives of 
beneficiaries as an end in and of itself. Whether it is helping 
farmers to improve their irrigation techniques in Mali, or 
supporting primary education in Jamaica, these programs can 
have significant development impact, but little strategic value 
to the United States.
    Thus, the success of fundamental assistance can be measured 
solely by the extent to which it improves the lives of the 
recipients.
    Instrumental assistance tries to improve the lives of 
beneficiaries as a means to some other tactical or strategic 
end. Whether they are quick-impact projects to employ 
disaffected youth in Sadr City, Iraq, or governance initiatives 
in Mindanao, Philippines to fight the Abu Sayyaf Islamic 
insurgency, such activities are designed specifically to 
advance U.S. security interests. Yet they can only be 
successful if two things happen.
    First, they must actually improve the lives of 
beneficiaries. And second, those improvements must be causally 
linked to the achievement of discrete American policy 
objectives.
    It is imperative that we recognize the value in doing both 
fundamental and instrumental assistance effectively. We should 
ensure that our civilian institutions are properly resourced 
and configured to perform both of those missions. To that end, 
there are tasks which should be undertaken in the near term to 
strengthen the State Department and USAID in this regard.
    First, there should be an easing of the legal restrictions 
on USAID mission directors in the field that critically limit 
their ability to respond flexibly to changing conditions on the 
ground, particularly in support of U.S. Government or U.S. 
military strategic objectives.
    Second, there should be an immediate increase in the number 
of USAID Foreign Service Officers and development 
professionals. This growth in the officer corps should provide 
enough personnel to place one what I call tactical development 
advisor with every deployable brigade combat team in the U.S. 
Army, and every Marine Corps expeditionary unit in the U.S. 
Marine Corps. And it should also be enough to support the needs 
of every regional combatant command in the numbers required.
    Third, USAID and State Department personnel must truly be 
worldwide-deployable, and be trained to operate in 
expeditionary, semi-permissive, and non-permissive environments 
as a matter of course, as a matter of their training.
    And finally, the U.S. Government should write and 
promulgate a national strategy for global development derived 
from the national security strategy, to guide the use of 
development assistance in support of American foreign policy, 
and to coordinate the foreign assistance activities of all U.S. 
Government agencies abroad.
    In conclusion, let me say that development assistance is 
not just a moral good or a matter of enlightened self-interest. 
It is in our vital national interest. There is no greater 
evidence of this than the military's increasing involvement in 
this sphere. Yet our own political culture and legal processes 
have not yet caught up to this reality on the ground.
    Our Government has a clear stake in the successful 
performance of fundamental and instrumental assistance, and I 
hope this hearing will be a meaningful step to empower our 
agencies to be effective in this regard.
    Thank you very much.
    [The prepared statement of Mr. Brigety 
follows:]<greek-l>Reuben Brigety deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Well, thank all of you very much for 
<greek-l>your,  deg.your contribution today. And I will start 
the questioning by yielding myself 5 minutes, which 
unfortunately limits both my question and your answer to that 
time period. But I need it.
    I want to raise the issue that Mr. Christenson sort of 
addressed specifically. The issue, put aside for a second the 
issue of who is leading development assistance in peaceful 
environments, and let us turn to the non-permissive 
environment, which I think is a euphemism for ``scary.''
    And yesterday I met with a group that I think started in 
Los Angeles. It is called the International Medical Corps. I 
didn't know much about them. And this is a group of people 
using lots of local hires, dedicated particularly to building 
the healthcare capacity in these transitional and very 
difficult areas, including the areas in eastern and southern 
Afghanistan right near the border, and a number of other 
conflict areas. And these are not what I would call peaceful 
environments.
    But they make the case that because they are focused on 
doing what the community needs, and finding out the community's 
desires in terms of healthcare delivery systems and 
vaccinations and medical attention, and focused on capacity; 
and because they do it, that if they were part of the military, 
if they were uniformed or had uniformed security around, they 
would become the object of attack much more than they are now. 
They are quite able to function in these areas in part because 
they are--even though they are all recognized as an American-
based NGO with a specific mission, it is their arm's length 
from the military that allows them to function, and function 
well.
    You talked about the problem in these environments. I am 
curious, I guess my first question is, to the extent--Mr. 
Christenson, you made a point of discussing this--I am curious 
about the General's reaction and the other witnesses' reaction 
to that. Maybe I will just leave it to the next 2\1/2\ minutes 
for you to talk about this whole question of the role of the 
civilian agencies and their contractees working in these kinds 
of environments.
    General Hagee. I would be happy to start, Mr. Chairman.
    First off, I think the role that these agencies play is 
absolutely critical. I have seen it time and time again. And I 
will go back to the Somalia example.
    The NGOs and most of these individuals were 19, 20, 21, 
under 25 years old, out there in, as you said, a very scary 
environment, but doing unbelievably good work. And as they told 
us, we can't do it if we are aligned with you. And to be quite 
honest, we understood that.
    But what we were able to work out, just one example, is 
instead of them using Somalis for their own security, we said 
well, we are going to be running a convoy from town X to town 
Y. And I know you can't go with us. But if you happen to be in 
the same area as we are traveling, then that would be fine, and 
we wouldn't be opposed to that.
    And when we kicked off the convoy, not very far behind 
there were a couple of NGOs tagging along with us. They were 
not associated with us, which we understood, but we were able 
to provide that security if anything happened.
    I think trying to militarize--my term--these individuals 
would be the wrong thing to do.
    Chairman Berman. Ms. Lindborg?
    Ms. Lindborg. Yes, thank you. Mr. Berman, I think you 
captured exactly the important ways in which NGOs can operate 
in these non-permissive environments.
    And what Mr. Christenson was yearningly describing as a 
needed function actually already exists with NGOs who do go out 
with local team members, outside the wire, without arms, able 
to sit down, know the local customs, drink tea and gain both 
community acceptance and protection based on the knowledge that 
the communities have that we are there to advance projects in 
their interest.
    Mercy Corps has worked since 2003 in Iraq unarmed, outside 
the wire, with support from USAID from the beginning, a 
wonderful partner in Col. Grabowski in al Kut, who enabled us 
to operate very separately. He never attempted to make it a 
joint effort. We found ways to coordinate and to communicate. 
And we were able to move forward community infrastructure 
projects in ways in which communities could envision and invest 
in their own future.
    Thank you.
    Chairman Berman. My time has expired. The ranking member, 
the gentlelady from Florida, recognized for 5 minutes.
    Ms. Ros-Lehtinen. Thank you for the time, Mr. Chairman. 
Thank you for the excellent testimony to each of our witnesses.
    I wanted to ask about micro-managing other countries 
through our programs. According to one report, after the State 
Department created its Office of the Coordinator for 
Reconstruction and Development, that office published a list of 
its aims, and in the course of that, listed 1,179 steps that 
the agency would take to carry out stabilization and 
reconstruction efforts in foreign countries.
    Those steps included: Maintaining positive relations with 
the indigenous population; assessing the need for prosthetic 
limbs in the population; improving drainage during road 
construction to reduce excessive run-offs; et cetera. It was a 
long list.
    And if that report was accurate, doesn't it seem to 
demonstrate that the current programs for stabilization and 
reconstruction actually envision a level of micro-management in 
foreign societies and governments and economies that could 
result in further financial bottomless pits for the American 
taxpayer? I would be interested in knowing your comments.
    Mr. Brigety. Congresswoman, thank you very much for the 
question.
    Let me say two things quickly. First of all, with regard to 
stabilization and the foreign assistance that is required for 
it.
    We are still relatively new at trying to understand the 
best doctrine to do this sort of mission. But what I can say is 
that the nature of warfare, the nature of our understanding of 
warfare has changed so dramatically, that the mission will not 
go away, even as we are trying to figure out how best to do it.
    On the specific question you raised with regard to micro-
management. Tomorrow the Center for American Progress is going 
to be releasing, which we are calling ``Swords and 
Plowshares,'' which essentially looks at the development piece 
of whatever our Afghanistan strategy is going to be. And the 
argument, one of the arguments we make in that is that it is 
actually very quite important to do what we call catalytic 
development.
    So as opposed to bringing in large numbers of outside 
Western service providers, the question is, how can you think 
about using development resources very, very strategically? So 
that you actually engage the local population, engage the local 
government, to begin to develop their own responses to these 
sorts of issues.
    Now, this is something that happens in other contexts, with 
much more, much more stable development contexts that our 
development NGO partners can talk about in detail.
    The question is how do you do that in a way, when you are 
operating in an insecure and non-permissive environment, and do 
it in a way that actually links to our strategic objectives.
    Ms. Ros-Lehtinen. I look forward to seeing that report. I 
am going to interrupt you just in case anyone else would like 
to comment.
    Ms. Lindborg. I would make a quick comment, in that I think 
it is essential that we equip USAID and other civilian parts of 
the government with the kind of flexibility that the military 
commanders have right now, to do more contextually appropriate, 
fast-moving, flexible work in the field.
    To have a myriad of chains and directives coming from 
Washington fundamentally undercuts their ability to be 
effective. And as we look forward, that should be a cornerstone 
of the reform process.
    Ms. Ros-Lehtinen. Thank you. Mr. Christenson?
    Mr. Christenson. I think we have to start by working on 
coming up with a definition of where our authority stops in 
another country's domestic affairs.
    We have become enormously intrusive. After World War II 
there were things that we just expected the Germans to do on 
their own, but nowadays we go in and every single thing becomes 
a matter of our interest.
    There is a great line by George Ball, who was Under 
Secretary of State under Kennedy. There was a coup in Zanzibar, 
and the State Department sent him a memo on the subject. He 
wrote back, ``God watches every sparrow that falls. I do not 
see why we should compete in His league.''
    I think on some of these projects that we are doing, we are 
just way too involved at the micro level. We have got to step 
back and let them govern themselves.
    Ms. Ros-Lehtinen. Thank you.
    Chairman Berman. The time of the gentlelady has expired.
    The gentlelady from Texas, Ms. Sheila Jackson Lee, is 
recognized for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman and the 
ranking member. These have been a very important series of 
hearings.
    Col. Hagee, I spent a lot of early time in Afghanistan as 
the war there began, and interacted in many parts of 
Afghanistan, watching our military be very effective in school-
building. In fact, one CODEL that I was on brought a large 
amount of schoolbooks from youngsters who collected 
schoolbooks. And we were interacting with what I think is your 
provisional reconstruction teams, the PRTs I think, those kinds 
of names. So I frankly believe that there is an appropriate 
balance to the utilization of the military.
    However, as you well know in the contrast, you know the 
outrage of Members of Congress when they heard about stacks of 
dollars that were stacked up or piled up in blocks, going out 
into Iraq. And how did $12 million, or I think it was $12,000, 
get lost.
    So there is sort of an accountability, not pointing the 
finger, but I think I am coming down on the idea of balance, 
with a higher reference to how NGOs and USAID.
    And I will pose a question to you, but I am going to go to 
my, to Ms. Lindborg and Dr. Brigety, please, if you would.
    Explore for me again the flexibility that you are asking 
for USAID, which I frankly very much agree with. They need to 
be able to produce. And sometimes the regulatory maze that we 
have for USAID keeps them from actually producing in that 
village, or with that warlord, if they are enacting.
    Tell me what you mean when you say give them greater 
flexibility, as well. Now, I am talking to you, Dr. Lindborg. 
Not Dr. Lindborg--yes, Ms. Nancy Lindborg, excuse me.
    Ms. Lindborg. Yes.
    Ms. Jackson Lee. But you can accept Doctor, that is all 
right.
    Ms. Lindborg. Well, thank you for the Doctor.
    Ms. Jackson Lee. And then I will go to Dr. Brigety. Thank 
you.
    Ms. Lindborg. You know what we often see in the field is 
that USAID is constrained by earmarks and by authorities that 
are, and decisions that are made here in Washington, without 
affording the mission directors the flexibility to make 
decisions that are driven by fast-moving, often non-permissive 
environments.
    They are also highly constrained in their ability to leave 
their compound. And I think there is an interesting discussion 
enabling civilian government folks to move about more freely, 
without being confined by shooters and armors.
    However----
    Ms. Jackson Lee. That means their escorts? You are telling 
them to be unescorted?
    Ms. Lindborg. It is a delicate balance between security and 
over-burdening our civilian government people with too many 
escorts.
    The NGOs, of course, have the great flexibility of being 
able to move about without shooters, without armor; and an 
ability to work with the communities to develop those more 
fundamental development plans and approaches.
    And you often don't know what will be the most effective 
until you are in it. And so to----
    Ms. Jackson Lee. Thank you.
    Ms. Lindborg [continuing]. Have that pre-wired from 
Washington constrains your ability to be successful.
    Ms. Jackson Lee. I would argue that you make a valid point, 
but I would like to give us flexibility, as well. But I would 
like to increase the flexible money versus the non-flexible. 
There are some valuable purposes for some of the designated 
monies.
    Dr. Brigety, let me try to get what you think is the 
appropriate ratio. How much more should we give? Look at the 
crisis in Darfur where al-Bashir is sending people out. I can 
tell you, being in the camps of Sudan, sitting on the ground in 
Darfur in those camps, those NGOs were a lifeline.
    How do we reinforce them and give them that flexible, NGOs 
and USAID?
    Mr. Brigety. Well, ma'am, let me sort of try to address the 
flexibility question from a slightly different perspective with 
a story very quickly, if I may.
    This past November, a young Marine Corps Captain came to 
see me. He was assigned to the U.S. Africa Command. And he was 
given several hundred thousand dollars, and said look, we have 
to spend this money by the end of the fiscal year. I want you 
to fly to N'Djamena, to Chad, and go find some projects, 
humanitarian projects to spend this on. You have 3 weeks to do 
it.
    Now, he is a very dedicated young Marine. He is a very 
smart young man. He was an infantry officer, younger than I by 
a lot. And the point is we have a legal system which entrusts 
young military officers with that kind of flexibility; and yet, 
we have USAID mission directors with masters and Ph.D.s, who 
have 20 or 25 years or more experience, who cannot deviate more 
than a few thousand dollars lest they go to jail. And that 
makes them ineffective partners with regard to the military.
    Now, I see that I am running out of time. So with regard to 
the larger question of ratios, I can't speak to that with any 
specificity. It really depends on the particular----
    Ms. Jackson Lee. Do you think we should increase the monies 
to go into USAID and have flexibility?
    Mr. Brigety. There is no question. Yes, ma'am.
    Ms. Jackson Lee. Increase money, get more flexibility.
    Mr. Brigety. Yes, ma'am, absolutely.
    Ms. Jackson Lee. Thank you. My time has expired.
    I thank the General for his service. Thank you.
    Chairman Berman. The gentlelady's time has expired.
    The gentleman from New Jersey, Mr. Smith, is recognized for 
5 minutes.
    Mr. Smith. Thank you very much, Mr. Chairman. I want to 
thank our distinguished panel for excellent testimony.
    General Hagee, you mentioned defense, diplomacy and 
development, the three smart power pillars. As I said earlier, 
the fourth power principle I think has to be profound respect 
for the indigenous, the life-affirming indigenous cultural 
values, including respect for the sanctity of human life, 
especially unborn children and their mothers. We need to affirm 
them both. And as we build out and grow our capabilities, I am 
concerned that that may not be the case.
    When President Obama reversed the Mexico City policy a few 
weeks ago, he unleashed $0.5 billion to promote, lobby, and 
perform abortions on demand in the developing world. That 
action puts millions of innocent babies, mostly babies of 
color, at risk of death; and in no way, in no way can be 
construed as development.
    I am concerned that there could be a backlash, especially 
as more high-profile efforts are underway. The military 
obviously in their uniform will be out working side by side 
with NGOs. NGOs have always been an extension of our U.S. 
foreign policy, but very often they are integrated in a way 
that people don't necessarily know who is footing the bill. It 
will be very clear in this situation.
    And I think we run the risk of being the ugly American. I 
know many people in Africa, many politicians, many people in 
the health departments who want both mother and baby protected, 
and not one at the expense of the other.
    Secondly, what thought has been given--you might want to 
answer this--to integrating the Veterans Affairs Committee, 
Veterans Affairs Administration, who has unbelievable expertise 
in PTSD, poly-trauma, and issues like prosthetic limbs? I 
remember when the FMLN, with their foot-taker-offer mines in 
the early eighties, hurt so many children. And I was there. The 
VA came in and helped fit many of those young children with 
prosthetic limbs, especially legs and lower extremities.
    Is the VA part of this? Because they do have an expertise 
that is very valuable.
    And finally, the concept of more fully integrating military 
assets with diplomacy and development, I started out earlier 
talking about emergency versus sustainable. I think you are too 
modest when you say the military instrument can create 
conditions of security to allow the others to do their job.
    But when it comes to rapid response, no one does it better 
than the military. I love the NGOs, but in terms of getting 
there with the right kind of expertise, for safe water, for 
helping people who are really on life support, no one does it 
better than the military. So I hope that is being integrated, 
as well.
    General Hagee. Mr. Smith, could I ask for a clarification 
on your question? I want to be sure I use my time appropriately 
here, exactly what I should address.
    Mr. Smith. How robust is the idea of integrating the VA, 
including military doctors and the Medical Corps, in the USAID 
plan and the plan for healthcare, in such a way that if 
something happens, individuals from the U.S. military can be 
rapidly deployed?
    Like in Sri Lanka. I was there when there were people in 
the military from my own district that were doing clean water 
projects, without which people would have gotten contaminated 
water and gotten very sick. And I just hope that is being fully 
integrated.
    Because again, Provide Comfort. I saw Kurds with American 
military jackets, camouflage. Without that, the exposure to the 
elements would have taken many of those individuals. They would 
have died had it not been for our military. There was about a 
month lead time, and after that, the baton was very effectively 
handed over to the NGOs, who did a great job thereafter.
    General Hagee. Well, I would say that, at least it has been 
my experience, that you are right. The United States military 
is the best as far as putting expeditionary forces quickly into 
a crisis site, whether it is a tsunami in Indonesia or the 
earthquake in Pakistan.
    And I have never seen a crowded battlefield. So from a 
commander's standpoint, I would say you all come. Whether it is 
the VA, whether it is the Agricultural Department, whether it 
is the Commerce Department. If you have got the capability and 
can provide some help here, then there is room for you at this 
particular situation.
    I would like to comment on the NGOs, though. As I said, I 
have been in East Timor, I have been in Somalia, I have been in 
some of the real garden spots of the world. And it has always 
amazed me. We come flying in on a helicopter; we have got 
significant capability; and there is normally an NGO already 
there on the ground, trying to do the work.
    So I continually tip my hat to these NGOs, primarily young 
men and women who are out there trying to do the right thing.
    Chairman Berman. The time of the gentleman has expired. I 
am going to yield myself 15 seconds, just to assure the 
gentleman from New Jersey, no one is suggesting that for 
purposes of logistical and lift capacity, that anyone can 
deliver humanitarian assistance after these disasters, like the 
U.S. military. Provide comfort, many other situations, we have 
all seen this. That is not an issue of debate here, I don't 
think.
    And I do want to welcome the presence of someone on the 
Armed Services Committee who has been very active on this issue 
of foreign assistance, and how it is being delivered, and in 
what situations: The gentleman from Arkansas, Mr. Snyder. It is 
good to have you here.
    And I now recognize the gentlelady from California, Ms. 
Woolsey, for 5 minutes. And welcome back.
    Ms. Woolsey. Thank you, Mr. Chairman. And I understand 
before I got here, you said some nice words. Thank you for 
those words. And I am delighted to be back in this seat.
    Thank you, witnesses. What a great panel you are.
    I have introduced, and am reintroducing, legislation called 
Smart Security, with a partnership of women, Action for New 
Directions, WAND, and Physicians for Social Responsibility, and 
National Priorities Project, which includes the Friends 
Committee and Church Women United. So you can imagine what, 
without me saying any more, what this is all about. It is all 
about war being the very last option for any country, 
particularly our own. And instead, investing and focusing on 
prevention, diplomacy, reconciliation, and reconstruction. And 
it is much more than that, but I am not going to go into that 
any further. I just want to give you a sense of it.
    But because of that, we know that we need to increase the 
international affairs budget in order to get our goals at least 
brought forward. So in the Congressional Progressive Caucus, in 
our alternative progressive budget, which will come to the 
floor, actually pluses up it is called Section 150, the 
International Affairs Budget, by even more than the President 
is asking.
    And I am part of a group that is working with our Chairman 
Berman in order to get Members of Congress to accept no less 
than what the President is asking for this section of our 
budget.
    So I am going to ask General Hagee, I have a question for 
you, then I have a question for Mr. Christenson. I am going to 
ask both questions, and then you can answer them. We have 2 
minutes left.
    In plusing up the international affairs budget, do you 
believe we need to offset it by decreasing the Department of 
Defense budget? Do you see that as the tradeoff, if we take 
those functions out of Defense and give them, put them where 
they need to be?
    And Mr. Christenson, what do you think about targeting 
funds in the international affairs budget so that it goes for 
humanitarian, diplomatic, rebuilding, education, and prevents 
any expenditures in weapons of, military weapons for these 
countries, nations that we invest in?
    Starting with you, Mr. Hagee, General Hagee.
    General Hagee. On the question, I wish I was smart enough 
to be able to answer that question as to how we should balance, 
how we should balance that.
    One thing I am absolutely convinced of is that our foreign 
aid and our diplomacy is under-resourced. These are questions 
of significant national importance. And today, a couple million 
dollars doesn't sound like very much when we are talking about 
trillions of dollars. But to me, the amount of money that we 
are really talking about is insignificant when you look at the 
issue that we are facing.
    So to me, it is really quite simple to provide the 
appropriate resources for our Diplomatic Corps and for foreign 
assistance people.
    Ms. Woolsey. Mr. Christenson? You look concerned.
    Mr. Christenson. On the issue of spending, I go to Africa, 
and I come back just so feeling guilty for having collected a 
consulting fee that I often don't bill for all the days I 
worked.
    If we can do things where we actually target money for 
those people in the villages, paying teachers, providing books, 
buying medicines, paying the nurses, training more nurses and 
doctors, I think that is just wonderful.
    With regard to military, this is just an Africa answer. I 
have yet to see an African country, other than maybe Botswana 
or South Africa, that actually benefitted from having an army. 
When I think of African armies, I think of guys who set up the 
roadblocks on Friday afternoon to shake down the passersby so 
they could get drunk on the weekends.
    What Africans need is a police force. They need an ability 
to enforce the law. But they don't need an army.
    Ms. Woolsey. Thank you.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from Indiana, Mr. Burton, is recognized for 5 
minutes.
    Mr. Burton. Thank you, Mr. Chairman. You know, one of the 
things that is most important in foreign policy is to have a 
good image of the United States. And if you, if you make a 
severe mistake and the enemy can profit from it, they will.
    And back in 2006, General, we had a very difficult 
situation occur in Haditha, Iraq. And one of my colleagues said 
that the Marines that were involved were cold-blooded killers. 
And three of those have been found innocent. One case is still 
pending, and I think there is some litigation taking place.
    You met with our colleague and talked to him about that. 
And I would like to know how the conversation went, and whether 
or not you reinforced what he said, or what took place. Because 
our enemies, Iran and others, the Taliban, al-Qaeda and 
Aljazeera, they played that up big time. And they made it look 
like the United States was a bunch of killers and murderers and 
doing horrible things, when in fact this was not the case.
    And I would like to know, first of all, did you reinforce 
what our colleague said? And number two, what do you think we 
ought to do in the future to make sure we don't have these 
sorts of things occur?
    I mean, before we judge somebody guilty, we should have all 
the facts. And so I would like to have your answer on that.
    General Hagee. When I became aware of the incident in 
Haditha, I came over and briefed the so-called Big Eight, the 
chairman and the ranking member of the Armed Services 
Committee, and the Appropriations Committee that looks at 
defense. And I told them what I knew, which was not very much, 
and that was essentially that 24 Iraqis had been killed after 
an IED had gone off; and that it included women and children.
    Other than that, we didn't know very much; that we had 
started an investigation. And I promised each one of them that 
we would investigate that very carefully, both actually what 
happened on the ground that night during combat, and also what 
happened as far as the chain of command is concerned. And if 
anyone did anything legally wrong or morally wrong, they would 
be held accountable. And that is what I told each one of those 
individuals.
    And in fact, we did that. We spent, it was much longer than 
I desired. It took almost 6 months, but we went down every 
email, every trail, to ensure that we understood, to the best 
of our ability, what occurred, both up the chain of command and 
on the ground.
    There were some, and the end result, there were some senior 
Marine officers who in fact were disciplined. And there were, 
as you indicated, there were other Marines, some senior, who 
have been charged, and there is still one pending.
    I can tell you that Marines were operating, at least a few 
weeks ago, in Haditha. We were able to explain to them, 
apologize for what we did. Sometimes things like that happen. 
You ask how can we prevent that from happening. I don't think--
we try hard, but we cannot prevent, on the battlefield, things 
like that from happening.
    The main point I want to make is we held individuals 
accountable, we went back and we talked with the people, and we 
are back operating there.
    Mr. Burton. Well, I guess the point I would like to make, 
General, and I was hoping you would reinforce this; and that 
is, we believe in this country that you are innocent until 
proven guilty. And four of the people that are fighting for our 
country in a war zone, and they are accused of being cold-
blooded killers, is just wrong. Especially when you find out 
later on that three of them were not guilty, and one of them, 
and the other one may not be guilty, as well.
    And so I just was hoping that----
    General Hagee. I can assure you, Mr. Burton, that in the 
Marine Corps, that is exactly what happened. We never said a 
thing until after the court martials were over, and the verdict 
was----
    Mr. Burton. You didn't reinforce anything that was said by 
our colleague.
    General Hagee. No, sir.
    Mr. Burton. Well, but you would agree that in the future, 
we shouldn't condemn somebody in a war zone of a war crime 
unless it has been proven.
    General Hagee. I think we always need to look at it. 
Whenever there is a report, we always need to investigate that 
report.
    Mr. Burton. Thank you, General. I yield back the balance of 
my time.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Virginia, Mr. Connolly, is recognized 
for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. And I would ask 
unanimous consent to enter my opening statement into the 
record.
    Chairman Berman. Without objection, it is so ordered.
    Mr. Connolly. And I want to say hello, especially to my 
former colleague, Phil Christenson. Good to see you again, 
Phil, in our respective roles. And I really appreciate what you 
had to say this morning.
    I have got two questions. The first is, I just got back 
from Afghanistan a couple weeks ago. And CERP funding for the 
military in Afghanistan, according to the auditors, a few years 
ago was $26 million. The amount for the budget this year is 
$977 million.
    Now, we talked about whether, you know, the appropriate 
role of the military in development assistance, that would make 
it one of the largest bilateral aid programs in the world. All 
being run by the military, all being run sort of on the cusp.
    I understand the need to get some flexibility to local 
commanders on the ground to be able to try to win hearts and 
minds, but $977 million is many orders of magnitude greater 
than that, and raises very serious questions about what could 
go wrong with that. Let alone, does it fit into any context 
that makes sense in terms of development profile for 
Afghanistan?
    General Hagee, your comments on that challenge?
    General Hagee. Am I still on? I am still on.
    I believe, as my colleagues here have all testified, that 
we need to have the flexibility. The individuals on the ground 
need to have that flexibility to help where help is needed. And 
primarily that comes in the source of money.
    How that should be divided, especially when you have a 
Chief of Mission there, I think is something that should, in 
fact, be discussed.
    When I was operating, and if I had funds, before I would 
expend those funds, I would always, if there was a Chief of 
Mission, if there was an ambassador, I would always discuss 
that with him. How should these funds be expended?
    I don't know whether that is being done over there or not. 
I would assume that it would be. I was unaware of that very, 
very large figure. It is a large figure.
    I don't have a good answer for that, except that I believe 
that our diplomats and our foreign assistance individuals need 
the same flexibility that the military has. How that should be 
divided, someone smarter than I am is going to have to figure 
that out.
    Mr. Connolly. Ms. Lindborg.
    Ms. Lindborg. Thank you. I think you raise a critically 
important point. And that is, fundamentally, CERP programs are 
for different purposes than longer-term development. And the 
danger is that they, in fact, can undercut the objectives and 
the processes of longer-term development. And we have seen that 
over and over again.
    If you build a school through your CERP funds, often it 
isn't integrated into local community priorities, it isn't 
resourced through teachers through the longer-term provision of 
supplies, et cetera, et cetera.
    It is important that there is a civilian-led structure that 
clarifies the development priorities that are not subordinated 
to the short-term objectives accomplished by CERP.
    Mr. Connolly. Thank you. Real quickly, Phil or Dr. Brigety?
    Mr. Brigety. Sir, I can't speak to the specific number, but 
I think the size of that number suggests two things.
    The first is that the military clearly understands that 
reconstruction activities are vital to the achievement of their 
objectives in Afghanistan.
    And the second is that the CERP mechanism is likely the 
most flexible, certainly amongst the most flexible, if not the 
most flexible mechanism to get money to do the reconstruction 
mission in Afghanistan.
    And that suggests that are civilian processes for moving 
money and for strategizing how that money is spent in the 
context of a crucial foreign policy priority--that is, 
stabilizing Afghanistan--is flawed, profoundly flawed, and it 
should be fixed.
    Mr. Connolly. It also raises questions about whether the 
military has the confidence to be running that massive an USAID 
program, frankly. I mean, that is not your mission.
    Real quickly, Secretary Gates has characterized the global 
war on terror as a global irregular campaign. What is the 
proper role for the State Department and USAID in that 
irregular campaign? Phil?
    Mr. Christenson. Well, I don't necessarily agree with 
Secretary Gates. That is my first problem in answering the 
question. But I think the State Department needs to be 
providing the real, solid, in-depth expertise about foreign 
societies and cultures and to make sure that that expertise is 
injected into the policy decision making here in Washington.
    I personally believe we don't know what we are doing in 
some of these countries. And we need to.
    Mr. Connolly. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Nebraska, Mr. Fortenberry, is recognized 
for 5 minutes.
    Mr. Fortenberry. Thank you, Mr. Chairman. Thank you all for 
joining us today. I appreciate your insights.
    There is a photo from the Iraq War, perhaps you have seen 
it. It is a soldier sitting cross-legged underneath the shadow 
of a tank, with a variety of military operations going on 
behind him. And across his lap is a small child. And I think in 
that photo, we right there most poignantly capture the dynamic 
of what we are talking about here today.
    And in that regard, Mr. Brigety, you had made some 
comments, if I understood them correctly, about embedding, 
effectively embedding Foreign Service Officers into military 
units.
    Mr. Christenson, you have the insight as to some of the 
mechanics of how this is now working, where you have a lot of 
white-collar workers simply in a bunker, and perhaps not being 
leveraged as effectively as it could.
    With this new model, though, I would like to unpack that 
further. How do you envision the skill sets and expertise of a 
Foreign Service Officer being embedded into a military unit? Or 
should another, could an alternative model be set up, where you 
have a military officer or a trained military personnel, who in 
effect is a Foreign Service Officer, or has the same skill set, 
and would work more seamlessly with the State Department 
mission, in the midst of combat and difficult situations, 
knowing full well what the expectation is.<greek-l>The 
following changed from General Hagee by staff associate deg.
    Mr. Brigety. Yes, sir. Thank you very much for that 
question. Let me try to answer it quickly with a quick 
anecdote.
    I talked with a Marine Corps second lieutenant in 2005, 
January 2005. He fought in the second battle of Fallujah 
November 2004, and he won a Silver Star in that battle for 
gallantry.
    And someone asked him what else do you wish you had on that 
battlefield? Expecting him to say better body armor or better 
air support. And he said, ``You know what I really wished I 
had? I really wished I had a Peace Corps on steroids.'' Meaning 
I really wish I had somebody there on the tactical level who 
could help me with all the vast sort of humanitarian issues I 
had to deal with.
    Here is how I think it could work. We already send senior 
Foreign Service Officers as senior development advisors to each 
of the geographic combatant commands. They are not unlike 
political advisors or POLADs, senior ambassadors.
    We can certainly, if we have the right numbers, have much 
more junior-level development officers who are broadly educated 
in things like community development, basic healthcare or 
whatnot, that are attached to a brigade level and a new-level 
team, for two reasons.
    One, so that young second lieutenant or young captain has a 
ready-made resource at hand that he can ask about how do I go 
about engaging the community in these sorts of stabilization 
reconstruction operations.
    And two, so you have someone who could help train these 
military units in garrison back here in the States, before they 
deploy.
    DoD Directive 3000.05 explicitly places stabilization and 
reconstruction at the core mission of the Defense Department, 
alongside combat operations. And yet we don't have the 
infrastructure to help that, the civilian infrastructure 
embedded in the teams to help them perform that mission. And we 
should.
    Mr. Fortenberry. General?
    General Hagee. Could I add a little bit on that?
    Mr. Fortenberry. Sure.
    General Hagee. First off, I think it is a good model. But 
meeting on the battlefield is not the place that you should 
meet.
    I was the Commanding General of the first Marine 
expeditionary force before the war responsible for going up. 
And I requested a State Department individual to come and help 
us with the planning. We could not get such an individual. They 
need to be an integral part of that team.
    Mr. Fortenberry. Which commands, which demands a new model 
for integration. Either a military officer that is cross-
trained in Foreign Service expertise, or vice-versa, where a 
Foreign Service Officer is going to be in harm's way 
potentially, not necessarily carrying a rifle on the front 
lines. Or effectively integrated, if we are going to pursue 
this direction.
    General Hagee. In a pure system, sir, I would argue that it 
should be a State Department individual.
    And one reason why, if I could, Ambassador Bob Oakley and I 
worked together in Somalia. He was a Foreign Service Officer, a 
young Foreign Service Officer in Vietnam, when he was told to 
write the Vietnamese Constitution. And he wrote the Vietnamese 
Constitution. It sounded an awful lot like ours.
    He brought that to Somalia. And when he was told to write 
the Somali Constitution, he said no, I am not; they have to 
write it.
    An individual who has served most of his time in the 
military doesn't bring that breadth of experience.
    Mr. Fortenberry. Ms. Lindborg?
    Ms. Lindborg. I would just add that for non-permissive 
environment-assistance activities, you need to have models that 
allow for differentiation. You need to have models that enable 
your NGOs and some of your civilian aid workers to not be 
associated with the military on the ground.
    And that, especially to jump-start the longer-term 
development which can and must begin as early as possible, it 
cannot be connected to a military force.
    Mr. Fortenberry. Well, it might be common objectives, but 
separate distinct roles here. So, thank you.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Minnesota, Mr. Ellison, is recognized 
for 5 minutes.
    Mr. Ellison. Thank you, Mr. Chair.
    Dr. Brigety, thank you for your words, and those of 
everyone on the panel. I want to start with you, because I 
represent the City of Minneapolis, State of Minnesota, large 
Somali population. And as you know, Somali has been referred to 
several times this morning.
    It is a state where, you know, we have had some military 
presence. And now, you know, it may be the world's longest 
state without a government.
    So I am interested, I am really interested in this topic, 
as to how we merge military and aid development, State 
Department-type functions, in order to get a state up on its 
feet. But you could expand this more generally. It is not just 
Somalia; there are other places where this is needed.
    And so one of our greatest security challenges facing us is 
how to strengthen weak or failing governments and states. And 
this is, it is critical to strengthen these kinds of places, 
and to get them to a point where they can resume responsibility 
for their own development, and become strong partners for the 
U.S. and the world community.
    Our military is obviously concerned about how to strengthen 
weak states, and even Secretary Gates has called for a greater 
capacity at USAID to address this challenge.
    But at the same time, all the money--well, not all--but 
most of the money and resources are with the DoD. And yet we 
have seen smaller resources other places.
    Given the resource imbalance, what mechanisms can ensure 
our development mission is not overwhelmed by priorities and 
timelines of our military capacity? Can you speak about the 
balance, and to make sure what <greek-l>do  deg.we do--and I am 
talking about in the short term. Because in the long term, we 
can just redesign, write a bill, redesign a program. But how do 
we get from where we are to that place where we have a new 
model that we are working from?
    Mr. Brigety. Congressman, thank you very much. It is a 
terrific question.
    The difficulty obviously is that there is no short-term 
solution. I mean, the imbalance has to be fixed. That is the 
first step.
    You asked an awful lot of things there. I think certainly 
with regard to what can be done in the reasonably near term, it 
is vitally important that the American public understands that 
foreign assistance is a national security priority. It is not 
simply a matter of good works. Our military leadership has done 
a very, very good job in articulating that. But once your 
constituents and the constituents of others understand that, I 
think that will create the space in order to be able to address 
the imbalance.
    In addition, I think that, certainly with regard to 
someplace like Somalia, although there are clear development 
things which can be done to improve the lives of the 
population, that is ultimately a political issue that has to be 
resolved.
    And I would suggest that that is going to help us to think 
through other forms of diplomacy. And the State Department I 
think has been very, very good traditionally at great power 
representational stuff, representational diplomacy.
    But I would think they need to get better at what I like to 
call tactical diplomacy. And that is being able to understand 
at the very, very grassroots level who the major political 
players are, what their various interests are, and how they can 
be accommodated in ways that support their interests and 
support ours.
    That is a model, for example, that we have also articulated 
with regard to Afghanistan, with regard to trying to understand 
the broad breadth of the Taliban insurgency.
    Mr. Ellison. And also, Dr. Brigety, is part of the problem 
that we really are transitioning from sort of a great power 
model of national defense, and into this new era, where we have 
these weak, failing states that can be exploited by hostile 
elements.
    Are we really, are we looking at a paradigm shift here? Do 
we need to look at the problem in that way?
    Mr. Brigety. Yes, sir. I think that is the essence of the 
problem. We have a structure which is still both in our 
military and our diplomatic corps, but is still geared toward 
Cold War large-scale, great power threats. And yet the threats 
that we have, as in the case of the 2002 National Security 
Strategy, are coming from weak and failing states. And we 
absolutely have to restructure our Government and our foreign 
policy in order to do it.
    Interestingly, the military is farthest ahead on this. So 
on the one hand, there is cause for concern for the military's 
involvement in this space. On the other hand, they are simply 
reacting to the world which they see. And now we have to have 
the rest of our structures catch up to that.
    Mr. Ellison. General Brigety, the last one was--I mean, 
excuse me. General Hagee, I am sorry. In the last few moments, 
could you talk about, do you think we know enough about how to 
get a failing or weak state back up on its feet? Do we have the 
intellectual capital we need to know how to do this?
    General Hagee. Oh, I think we have the intellectual 
capital, but I would echo what Mr. Smith said. What we need is 
a true understanding of that people, that culture, and what 
they want.
    We, the American people have a lot of really good 
characteristics; unfortunately, understanding a different 
culture is not one of them.
    Chairman Berman. The time of the gentleman has expired. I 
seek unanimous consent to place into the record an article 
mentioned by Mr. Christenson, ``Making Foreign Aid a More 
Effective Tool,'' written by three former USAID administrators, 
Brian Atwood, Peter McPherson, and Andrew Natsios, a bipartisan 
group of USAID administrators, placed in the record. Without 
objection, that will be the order.
    And also a letter by a group of former top military 
commanders all across the armed services, including General 
Hagee, under the letterhead of the U.S. Global Leadership 
Campaign, regarding the Fiscal Year 2010 international affairs 
budget. Without objection, that will be the order.
    [The information referred to follows:]<greek-l>Berman 
submission FTR deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              
<greek-l>Submission--U.S. Global Leaders deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

    Chairman Berman. And the gentleman from Arkansas, Mr. 
Boozman, is recognized for 5 minutes.
    Mr. Boozman. Thank you, Mr. Chairman. General Hagee, I have 
had the opportunity to be in Iraq several times, and 
Afghanistan, and on some occasions being in the forward 
operating bases, looking at VA--not VA, but healthcare issues 
and things. But being out there.
    I guess it seemed like the frustration that the commanders 
were facing was they figured out pretty quickly, as the war in 
Iraq went on, and now in Afghanistan, that they were fighting a 
war militarily that needed a great deal to be solved with 
humanitarian aid, just the infrastructure aid, all of those 
kind of things. You know, high unemployment, just basic things.
    And yet there was nobody there to help. The State 
Department wasn't there, because they were very dangerous 
situations. None of the branches of government, except for the 
military, Commerce, all of these things that they desperately 
needed.
    So as a result, they had to become the aid providers. And I 
guess, I just, unless you did a situation--we talked about 
embedding USAID people, State Department in there. And again, I 
would argue that not only that, but there are other areas of 
government that should provide a role, also. But you would 
almost have to train them in a different way. I mean, that 
would be a different breed of guy or girl than the normal 
person in those conditions. I mean, those are very, very 
difficult conditions.
    But again, now we are coming back and kind of saying well, 
there is this imbalance and this and that. But in that 
situation, I just don't see how you get around from doing that.
    General Hagee. I think what you have pointed out is 
absolutely correct; and that is that we should have 
individuals, depending on the situation and where we are, from 
Agriculture, from Commerce, from Water and Power. In my 
opinion, the armed forces should not be training police; that 
is not what we do real well. But there are policemen here in 
this country who do that actually really quite well.
    How do you train for that? I would argue that one, if not 
the most important, reason that we have the best military that 
the world has ever seen, is that at each grade, we allow an 
officer or an enlisted to go to school for about a year. They 
learn how to plan. They argue with one another. They argue 
about doctrine, they argue about how we should be organized. 
And we have done that since just after Vietnam.
    Unfortunately, no other agency in the United States 
Government, as far as I know, has that capability, because they 
don't have the capacity to do that. That is one way that you 
could address that, sir.
    Mr. Boozman. And I agree. The other problem in these failed 
states, these situations, it is unlike fighting any other war, 
I think, that we have fought, in the sense that there are no 
safe havens. I mean, you are in danger almost wherever you are 
at. There is no pulling back to the back of the line. Again, it 
is just very difficult.
    Yes, ma'am.
    Ms. Lindborg. Thank you for your question, Mr. Boozman. I 
would just offer that there is a model out there in Iraq, with 
USAID funding for NGOs that have worked throughout all 18 
governments of Iraq throughout 2003, on the Community Action 
Program. Which is, even in non-permissive environments, through 
local staff, through an ability to gain community acceptance 
and security, working on community infrastructure and on 
mobilizing citizens for action, and to become constituents for 
security.
    It was a minuscule amount of funding compared to what goes 
in on a daily basis to Iraq. And there are opportunities to 
expand what we already know can work.
    Mr. Boozman. No, I understand. And yet, like I say, there 
are plenty of situations where, to those guys on the Ford 
Operating Base, that wasn't available.
    And it might be valuable at some time to get some of those 
guys in here, and sit them down and say, What were your 
challenges out there?
    Mr. Christenson, real quickly while I have got you here, 
the Millennium Challenge Account. You know, to me that seems to 
have worked well. Can you just very quickly, in 33 seconds, 
share your, share what you think is going on with that?
    Mr. Christenson. Yes, sir. I think the Millennium Challenge 
Account is the wave of the future. It takes a little longer to 
get the projects proposed by the host government, but that is 
because we are relying on the host government to set forth its 
priorities. When you are dealing with democratic governments, 
that is who you should listen to.
    I think what is important is to look at the difference 
between what they propose to MCC versus what we have on offer 
through our other programs. It is very instructive.
    Mr. Boozman. In 2 seconds, again, in being there, the 
leaders of those countries were so proud of meeting their 
objectives and stuff. So I yield back.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Indiana is recognized for a unanimous 
consent request.
    Mr. Burton. Mr. Chairman, I ask unanimous consent to put an 
article that I think is relevant to the discussion in the 
record. Is it okay?
    Chairman Berman. Yes. Under the subjective relevance test, 
it is okay. [Laughter.]
    So ordered.
    [The information referred to follows:]<greek-l>Burton 
submission FTR deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

    Chairman Berman. And the gentlelady from California, 
Ambassador Watson, is recognized for 5 minutes.
    Ms. Watson. Yes, and very quickly. If we run out of time, I 
will take the complete response in writing. I want to address 
this to Mr. Christenson.
    I have heard remarks among the panel--and I really 
appreciate this panel being here, and I am quite concerned, 
because I have been there. We had a problem at my post in 
Micronesia; it had to do with cholera.
    I called down the emergency medical team from Guam, and 
they came in their fatigues. And they were going to go into the 
village to tell the people to heat the water for 10 minutes, 
boil the water for 10 minutes before they drank it.
    Well, they came in their fatigues. They thought there was 
an invasion of that community.
    Now, I am getting to this point. USAID has traditionally 
been seen as an organization that really comes in after the 
war, and really helps the people with their development. That 
is ideal. And I think we ought to have a strict demarcation 
between what the military does and USAID's traditional role, 
and probably a better merging with the NGOs that are already on 
the ground.
    Would you comment, please? What you see as ideal.
    Mr. Christenson. I think what would be ideal is if we had 
an agency for international development that was capable of 
sending that type of team.
    Ms. Watson. And who is that?
    Mr. Christenson. Well, they don't have it. USAID is a 
contracting agency. They don't have people who are prepared to 
show up that quickly. They can put out a task order, and have 
people bid on it, by which time they have all died of cholera.
    Perhaps the military needs to be asked to, to show up, you 
know, without their fatigues. Maybe just if they are doing a 
medical program, they can show up in their white uniform 
instead of the other.
    But I think that we should not accept the notion that the 
military are somehow off limits. I have a real problem with 
some of the comments as sort of--comments I have heard in the 
past about people wanting not to be seen with the military. I 
am proud of being seen with the U.S. military, and I think 
other people should be, too.
    Ms. Watson. Let me ask Dr.--yes, I just dropped your name 
for a moment. Doctor, yes. And how do we fashion so that we can 
improve our image, the USAID function? And how do we work, how 
should we work with the NGOs?
    And there was a statement made that when we got there, they 
were already there. And my experience has been that they can 
customize and sensitize the aid to the area that they are in. 
And I find it works very, very well. I would like to get your 
reaction.
    Ms. Lindborg. Well, the great value that the NGOs bring 
globally is that we are often there in advance during and after 
a conflict, that we leverage the assistance we receive from the 
U.S. Government with extraordinary amounts of public support 
from across this country. And that we are able to work in a way 
that understands, through relationships and cultural knowledge, 
what the needs are, and what the visions for the future are in 
the communities in which we work.
    That value I believe is greatly compromised if we are 
brought too closely into the team, and we would be wise to 
develop structures that allow that kind of differentiation, 
while also enabling the kind of communication and coordination 
that allows a larger set of objectives to be developed.
    There is a separate question about enabling USAID to be 
more expeditionary and more effective. It has lost 
extraordinary amounts of capacity over the past two decades. As 
Mr. Berman cited, it has very little of the expertise that it 
used to have.
    So I think there are two related, but slightly different, 
challenges that we face as we move forward.
    Ms. Watson. Thank you. And in my remaining time, I would 
like to go back to Mr. Christenson. Are you suggesting the need 
to develop a new organization? I think that is what I heard.
    Mr. Christenson. Yes, ma'am, I do believe we need a new 
organization.
    Ms. Watson. And you mentioned it, and you said an 
international----
    Mr. Christenson. Well, it could be an organization made up 
of people who are actually prepared and have technical skills 
that can be deployed to countries. USAID doesn't have the 
technical skills because they stopped recruiting them in the 
1980s.
    Ms. Watson. Out of the State Department, this organization?
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from South Carolina, Mr. Inglis, recognized 
for no more than 5 minutes.
    Mr. Inglis. Thank you, Mr. Chairman. I wonder what you 
might think about a public-private investment fund for Iraq. Is 
this the time to be talking about something like that, like we 
have done in other countries, where we presumably would make 
these as loans maybe that had been repaid? We have done that in 
other places.
    Is this something we should be talking about at this point 
for economic development in Iraq? Trying to stabilize the gains 
we have made there?
    General Hagee. In my personal opinion, sir, absolutely. I 
know that there have been several senior officers, the current 
chairman, who has actually gone to some of the private equity 
firms trying to get them interested in doing just that.
    To me, the idea that we are going to separate the 
battlefield, and pot A is going to do this, and capability B is 
going to do that, does not work on today's battlefield. One can 
even argue that it may not have worked during World War II, but 
it surely doesn't work today.
    And winning the war and winning the peace, that, to me, 
doesn't compute. We have a situation. We need to bring all 
elements of national power, and that includes the private 
sector, I would argue, to this situation, if it is, in fact, in 
our national interest.
    Now, I think the, what the entire panel would agree on is 
you need someone to coordinate that. You can't just be 
haphazard. But the idea that we can fence off this current 
battlefield, and that we can divide war and peace, I think is--
if we think that way, we are not thinking about the real 
situation.
    Mr. Inglis. Thank you.
    Ms. Lindborg. I think you are asking exactly the right 
question. And as we look to creating a more nimble and 
innovative USAID, you would have to put a lot of work into 
developing mechanisms that support public-private partnerships.
    And of course, we have tools that are also funded by the 
international affairs budget, like OPIC (the Overseas Private 
Investment Corporation) that enables greater risk-taking by our 
public and our private sector.
    I would add that in Afghanistan, with support from USAID, 
Mercy Corps already has partnerships with the private sector, 
where we are seeking to stimulate economic development.
    I would firmly support your thinking on bringing that more 
vigorously into Iraq. Without economic opportunity, it is that 
much harder to get stability in these conflict environments.
    Mr. Inglis. Anyone else?
    Mr. Brigety. Sir, I would simply add, in addition to the 
comments of my colleagues, that it is important to develop 
public-private partnerships not simply in response to wars like 
Iraq, but it is also important to think proactively, and to 
think about ways in which we could bring public-private 
partnerships to bear in places that are unstable, but have not 
yet collapsed into war.
    Again, as I said in my statement, because if we are able to 
leverage those toward capabilities, then we prevent, in many 
cases, states from collapsing entirely, and preventing them 
from becoming failed states, and therefore places where we may 
have to respond militarily.
    So this is a continuum. And we need to be thinking about it 
in the context of full-on combat operations, but also in the 
context of preventative action, as well.
    Mr. Inglis. The reason I am asking is, the first time I was 
in Iraq I met the helpful captain who had left Wall Street, and 
sort of gotten back into the National Guard in order to go to 
Iraq, wanted to go to Iraq. And he is now back on Wall Street, 
and has already a successful project that has been, I think it 
says, I understand it was profitable in the first year. A 
tomato processing plant that is employing people<greek-l>, deg. 
that has already become profitable.
    And what I hear from him is there are tremendous 
opportunities if people are willing to take a little bit of 
risk. Of course, they need perhaps the support of the U.S. 
Government to make them feel comfortable in taking some of that 
risk. But if they do, there are tremendous opportunities to get 
people to work in productive enterprises, and to make some 
money. Because people need to eat, they need clothes, they need 
supplies, they need equipment. So it is helpful to hear your 
thoughts about this possibility.
    Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. We 
have 2\1/2\ minutes remaining before a vote that is now going 
on. I, myself, intend--if maybe only I can get to ask some more 
questions--to miss the vote. And any of you are welcome to join 
me, if you want to. As long as we keep--as long as we are 
winning.
    The gentleman from New Jersey, Mr. Payne.
    Mr. Payne. Thank you. Thank you very much. I just have a 
concern.
    One, I think we are talking about two different things as 
it relates to foreign assistance. And I think we are mixing 
them up.
    I think that in an area like Iraq or Afghanistan, this has 
to be this, you know, USAID may be embedded and all that. The 
thing that disturbs me, though, is something like AFRICOM, 
where you don't have a war going on, where you send a four-star 
general to four or five countries in a day or two, tell them we 
have got a new thing going that is called AFRICOM, and we are 
going to tell you more about it. But you have got a four-star 
general. We are going to be assisting in your USAID, and 
feeding the children, and all the other things.
    And so when they leave, these countries, 52 out of 53 
countries, said thanks, but no thanks. Liberia said okay. They 
just, anything, you know. Give me a hand. If it means jobs, it 
is okay.
    But overwhelmingly, African nations said no. Number one, 
they said that this is here to protect the bay, the Gulf of 
Guinea's oil, that is very good for the United States. And 
number two is to hunt out any suspected militant that may harm 
U.S. interests, or whatever. And they, you know, ended up 
saying well, what is in it for us? Why do you want to 
militarize U.S. assistance? And that is what it really looked 
like.
    And there was to the country a question of wait a minute, 
what is this all about. Which I also have questions about, and 
certainly oppose in the manner in which it was initially--now 
it is in effect. You know, the military, when they are going to 
do something, they just do it, and so it is done.
    But I think that it is wrong. I think that developing 
countries that are trying democracy and so forth, the way it 
used to be was that the military people dispensed everything in 
their own countries. And now we are going to have duplicating 
that with U.S. assistance through military.
    There is no question the military can bore holes for water, 
and build bridges, no question about that. Mercy ship comes in, 
they could help people. No doubt about it.
    However, I think it is a wrong move for us to make it 
appear as though--and they say well, that is not the intent--
but that is the way it looks to me. So I just wanted to--yes?
    Mr. Brigety. Congressman, thank you very much for your 
comments. There is no question that the role of AFRICOM could 
have been done better. I think that everyone involved in that 
and that observed it recognizes that.
    I do think, however, that the essential premise of AFRICOM, 
which is that there are security challenges on the continent of 
Africa which are not amenable to be solved through military 
means. And therefore, we need to think differently about them. 
I think that premise basically is correct.
    Let me give you sort of an example of that. I was in the 
Dob refugee camp on the Kenyan-Somali border inside Kenya in 
2007. And if you have been there, you know that the Dob has a 
refugee population about 150,000, many of whom have been there 
since 1992.
    Mr. Payne. And growing now.
    Mr. Brigety. Yes, sir, and growing. And of that, when I was 
there in 2007, of that 150,000 there were just over 50,000 men 
between the ages of 18 and 59 with nothing to do. Many of whom, 
it has been argued, could have been linked to fighting in 
Somalia.
    Now, that is not necessarily a development priority, 
because the malnutrition rate of the Dob camp is actually very, 
very low. The population is well fed, et cetera. And yet this 
is a place where development mechanisms, things like job 
training for men, clearly meet with our security objectives, 
which are trying to figure out how we can engage that very 
large population of men that otherwise have no other skills, 
and will be, one way or another either be involved in Somalia 
fighting today, or will have to be repatriated.
    So those sorts of challenges across the continent are 
things that USAID would not necessarily look at, because they 
are not straight in sole, what I will call fundamental 
development challenges. And yet, there are things that I think 
as a country, we are going to have to be thinking about.
    Ms. Lindborg. If I could say a quick comment. Mr. Payne, I 
very much appreciate your observations. And I think that in 
fact, the standing up of AFRICOM stands as one of the most 
singular arguments for the need to increase our civilian 
capacities. That the military saw it didn't want to keep 
putting boots on the ground in the combat situations, and saw 
that there was, because of chronic under-investment in 
development and diplomacy functions, great potential for 
conflict on the African continent.
    With their can-do attitude, they rolled in with a set of 
solutions. I think it is incumbent upon us as a country to 
rebalance our civilian capacities in order to meet those 
challenges, rather than using the military solutions that 
AFRICOM puts on the table.
    Mr. Payne. Thank you very much.
    Chairman Berman. Gentlemen, my strategy worked. I get to 
recognize myself<greek-l>, deg. and I don't have to put myself 
on the clock. Because, unless you are going to hang around too, 
in which case I am willing to go back and forth with you.
    I wanted to--and I know several of you have to leave pretty 
soon, and I won't be that long. But a couple of points I wanted 
to make and get your reaction to.
    The ranking member raised, in her opening statement, this 
sort of discussion of building up capacity versus reform. And 
Mr. Christenson spoke about that. And the chicken and the egg, 
and which comes first.
    But if USAID has become simply a contracting agency, you 
can't really reform without building capacity. And so I don't 
think it is as easy to say, Well, let us reform 
first<greek-l>, deg. and then we will rebuild the capacity. You 
want to rebuild the capacity the right way; we want to take a 
lot of the things you suggested in both training and mission, 
and in getting out of post-World War II models. We have done a 
lot of that already. <greek-l>But, a deg.And I have seen a lot 
of different programs in different areas that have made real 
differences on the ground.
    But I don't think--and I guess I wish the ranking member 
were here so we could continue this discussion, but the message 
can get back to her. I think there is a problem with just 
saying, Let us reform it all first<greek-l>, deg. then we will 
get to the capacity building. Because if USAID is now a 
contracting agency, what are you going to do, close the 
contracting down? We are not going to do that. So I think the 
two go hand-in-hand.
    The second point is, the question about the Millennium 
Challenge Program. And I am torn, because part of me thinks 
that is the right way to go. That is the model for the future. 
It is a merit-based test; it ensures the capacity of 
<greek-l>the, of  deg.the society that is well-governed to most 
absorb the aid. It is driven by the elected leadership, because 
democracy is one of the tests. And a number of other tests of 
good governance are the tests for where it goes.
    And at the same time, for all the reasons the General 
mentioned and others have talked about, if you turn your back 
on the states that still might be dictatorships, and where 
corruption is still rampant, and don't work with <greek-l>the, 
deg.both the USAID people on the ground and the NGOs--as 
opposed to the government in many cases--to do something, you 
are going to go from corrupt and dictatorial states to failed 
states.
    And so this is a--it is not so easy to sort through all of 
that, in terms of how to apportion it. But there is something 
about that program I agree is very appealing, and in the long 
run makes a lot of sense.
    I would mention, Mr. Christenson, that, as you discussed 
this, I noticed you signed the majority report of the Health 
Commission. Am I wrong?
    Mr. Christenson. I wrote parts of it.
    Chairman Berman. Oh, you <greek-l>wrote, you  deg.wrote it.
    How about the part that called for <greek-l>an  deg.up to 
10 percent of the combined national security budget to go into 
the international affairs budget programs? A significant 
increase from the current level, which is about 6 percent, and 
would result in a huge increase, far more than even this 
administration is proposing in foreign assistance.
    Mr. Christenson. No, I did not write that, I could 
guarantee you. I mean, that is overkill.
    Chairman Berman. All right. Well, I wouldn't have asked the 
question if I hadn't thought you had signed it.
    Mr. Christenson. You know, if I could suggest something 
that members of the panel have to leave, if they have, you said 
they have to leave at 12 o'clock. Perhaps we could ask them 
their views. Maybe after they have had the chance to leave, we 
could talk about that.
    Chairman Berman. Well, I do want to make the second vote. 
But I take your point, that you did not write that part of the 
report.
    Mr. Christenson. But can I just say something?
    Chairman Berman. Yes.
    Mr. Christenson. USAID does not have a competent personnel 
office. It uses its director of personnel as a rotating slot 
for mission directors they can't figure out what else to do 
with for a while. They are constantly changing. The number-one 
reform of foreign aid would be to have a professional human 
resources office with continuity of leadership.
    Chairman Berman. That is an indictment of the management.
    Mr. Christenson. Yes. I said<greek-l>, deg. USAID needs a 
management structure. It needs people to go in there and put 
back in place a competent management.
    This committee in the late nineties had a bill that 
required that the State Department Director General, who is the 
director of personnel, be somebody with 10 years human 
resources management experience instead of using it as an 
honorific place for ambassadors to park.
    The State Department had a fit, and they insisted that it 
come out of the bill.
    Chairman Berman. Well, we ought to think about that.
    Mr. Christenson. I think that is a number-one reform for 
both agencies.
    Chairman Berman. Although I do have to say, I have always 
been quite impressed with the present Under Secretary of 
Management in the State Department.
    Mr. Christenson. Extremely impressed in my opinion. I mean, 
Pat Kennedy is fabulous.
    Chairman Berman. Yes, okay. It is possible.
    Mr. Christenson. I once went up to CIA and spent the entire 
day talking to them about how do they deal with the problems 
they have that are the same as the State Department and USAID 
face. It was a very valuable day.
    One of the things I discovered was that the CIA has a 
personnel director who has been there for a very long time. 
They plan 10 or 15 years from now. They bring in people and 
they have very long-term plans that they implement to train, 
develop and assign them.
    State and USAID have people who make plans, and then they 
leave. The next guy has always wanted to do it differently, and 
he starts another plan. And it turns into absolute chaos.
    If you look at the cohort of people that USAID has brought 
in once they were given the authority to hire more people, it 
is the same template they have been recruiting against for 
eternity. They are Peace Corps volunteers who went overseas, 
perhaps with an English major. They came back from the Peace 
Corps, and they go to SAIS or Georgetown School of Foreign 
Service and got a quick master's degree in international 
development. Then USAID says they don't have any engineers. 
Well, yes, you didn't----
    Chairman Berman. We should get them to run for Congress.
    Mr. Christenson. Go out and hire them. If you are looking 
for agronomists, go hire agronomists.
    But if they are constantly recruiting against a template 
that nobody has ever really thought about--asking, Do we really 
need to hire this type of person to work in this agency and to 
be the future leaders of the agency? They don't do it.
    Chairman Berman. I think you <greek-l>ask, you  deg.raise a 
very, very good point that we should look at.
    Well, any other reactions on this? Ms. Lindborg.
    Ms. Lindborg. I would just quickly add, on your thinking 
about the MCC, I don't see it as an either/or; but rather, 
those I think are exactly the kinds of issues that can be 
effectively addressed in the national security strategy. And to 
ensure that we have capacities to deal both with the failing 
states, those more or less permissive environments, as well as 
those countries that are further along on their development 
continuum, and create a cohesive whole. So there can be a 
handshake and coordination on platforms that are shared in each 
of the countries.
    So I think that you are raising the right questions, and 
the answers lay in creating this more comprehensive view.
    Chairman Berman. And then my----
    Mr. Christenson. Can I answer the question on the MCC?
    Chairman Berman. Yes.
    Mr. Christenson. One of the problems the MCC has an upward 
limit for is program. Countries like South Africa and other 
well-managed democracies are not allowed to participate in the 
MCC.
    One of the reforms we might look at is when you have 
countries that are above the MCC threshold for eligibility. 
Maybe we ought to turn to an MCC model for them; and take those 
human resources that we are wasting on trying to manage 
projects in these countries, and use them where we need them.
    Chairman Berman. Well, I will take South Africa in 
particular.
    Mr. Christenson. You what?
    Chairman Berman. You raised South Africa. In South Africa 
in particular, we went there last July, and we looked at a lot 
of PEPFAR projects. And one of the results of our heavy 
investment in PEPFAR was helping to build, in South Africa, 
both an openness and a capacity to take these things over. And 
you saw it morphing from simply providing prescription drugs 
and having just American agencies involved in education 
programs and prevention programs, to the start of a development 
of a South African infrastructure to do those things.
    Mr. Christenson. I spent 33 years working on South Africa, 
and I don't agree that that is what happened. And I apologize 
for saying that.
    South Africans were planning a massive HIV/AIDS program 
prior to the launching of the PEPFAR program. They were 
planning to----
    Chairman Berman. I heard some of the things they were 
talking about. And----
    Mr. Christenson. If you look at what they actually did. 
Forget the rumors in the newspapers of who said this, 
supposedly said what, they were working on a massive program 
that they were going to announce in late 2003.
    If you look at what they announced in 2003, and you look at 
what they have accomplished, they kept their word, and they 
accomplished what they promised.
    South Africans have a very different way of dealing with 
the world. They work out the difficulties in advance of making 
the announcement. Bush took all the wind out of their sails by 
making the PEPFAR announcement, which he did in a very abusive 
way.
    Chairman Berman. Okay.
    Mr. Christenson. Let me just finish. The U.S. Government 
announced to the South Africans that they were going to have a 
program with 500,000 South Africans in it, by calling them at 4 
o'clock in the afternoon on the day of the State of the Union 
Address.
    The South Africans were livid.
    Chairman Berman. You are not going to get me to defend the 
way the Bush administration handled some of these issues.
    Mr. Christenson. No. Then what you had was this permanent 
conflict between PEPFAR and the South African Government. The 
Ministry of Health's attitude was you are either with PEPFAR or 
you are with us, you can't be with both. How did we do that so 
poorly?
    Chairman Berman. Well, that is a fair question. My own 
sense that the danger of sending any of us anywhere for a quick 
trip is, we can jump to a conclusion perhaps based on 
inadequate evidence. My own sense is there were changes in that 
tension that had, by the summer of 2008.
    Let me just ask my last question. And General, I would be 
curious about your response, but all the panelists.
    We have been talking about development assistance and 
permissive environments and non-permissive environments, all 
that. I would like to go to security assistance for a second. 
Because this whole issue--another phenomenon I mentioned in my 
opening remarks, besides the PRTs and other sort of, the 
creeping role of DoD into a lot of traditionally civilian 
assistance programs, is the DoD finding different ways to take 
over the decisions regarding, and the providing of, security 
assistance.
    Now, the military may not be right for training police, but 
they are right for training troops. And the security assistance 
and IMET are always going to be implemented in great part by 
military people.
    But I am curious<greek-l> about deg., is there a reason why 
the actual providing of military assistance, money for systems 
and all that stuff, should be carried out by DoD rather than 
the State Department?
    One of the reasons, as the chairman of the Joint Chiefs of 
Staff has said, talk about not handling an issue well. The 
State Department, the length of time, and the difficulty in 
actually getting that out to the intended recipients needs a 
huge amount of reform and improvement.
    But at the end of the day, isn't security assistance an 
aspect of our foreign policy priorities in--with the national 
security context, I guess what I want you to say is yes, State 
should still do this. But disabuse me if I am wrong.
    General Hagee. I would, sir, but you are not. I would 
support. But I would also echo what the chairman has said, and 
what others have said, the bureaucratic process of getting that 
in a timely manner so that in fact you can have a diplomatic 
effect, it is just really quite burdensome.
    The commander on the ground, when all is said and done, 
doesn't care where it comes from, as long as it comes in a 
timely manner. And I think State handling it is just--personal 
opinion, Mike Hagee's opinion--is just fine.
    Chairman Berman. But we have got to make it, we have got to 
clean up the way it is done, I take it.
    Anybody else have reactions on this issue?
    Mr. Brigety. Sir, the only thing I would add is, you 
mentioned briefly police training. And it is the perpetual 
problem with every stabilization reinstruction.
    As General Hagee has said, as other military officers have 
said, that the military should not have a role in police 
training, I agree with that. But I also think that we need to 
seriously relook at Section 660, the Foreign Assistance Act, 
that prohibits USAID from engaging in that.
    Somebody has to own that mission operationally for the U.S. 
Government.
    Chairman Berman. Thank you all very much. I am sorry for 
keeping you a little longer than you intended, and I think it 
has been a very excellent hearing. I think a lot of different 
issues have been raised that we can think about. And I 
appreciate your being here.
    General Hagee. Thank you, Mr. Chairman.
    [Whereupon, at 12:15 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


 Material Submitted for the Hearing Record<greek-l>Hearing notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Hearing minutes deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Jackson Lee statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Watson statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>McMahon statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
